App. 1
SUPERIOR COURT
OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-5083-18T2
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
P.Z.,
Defendant-Appellant.
Submitted October 5, 2020 – Decided October 22,
2020
Before Judges Fasciale and Rothstadt.
On appeal from the Superior Court of New Jersey,
Chancery Division, Family Part, Burlington
County, FO-03-0090-19.
Sendzik & Sendzik, P.C., and Evan F. Nappen, attorneys for appellant (Louis P. Nappen, Janice L.
Richter, and Jay C. Sendzik, on the briefs).
Scott A. Coffina, Burlington County Prosecutor, attorney for respondent (Alexis R. Agre, Assistant
Prosecutor, of counsel and on the brief ).
PER CURIAM
Defendant’s personal firearms and firearms purchaser identification card (FPIC) were seized pursuant to the Prevention of Domestic Violence Act of
1991 (PDVA), N.J.S.A. C:25-17 to -35. The State seized
these items after his former girlfriend, J.S., obtained a

App. 2
temporary restraining order (TRO) against him. Although the Family Part denied a final restraining
order, (FRO), the State filed a motion to forfeit defendant’s weapons and FPIC under N.J.S.A. 2C:58-3(c)(5),
contending that defendant’s possession of these items
would be against “the interest of the public health,
safety, or welfare.” We affirm the order under review—
dated June 3, 2019—which granted the State’s petition
for forfeiture of the weapons and FPIC.
Defendant and J.S. started dating in 2006. The
couple had one child, who was born in 2010. They lived
together for a brief time prior to defendant’s military
deployment in 2010, when the child was approximately
four months old. When he returned from Iraq in 2011,
defendant did not move back in with J.S. Rather, they
continued seeing each other, but their relationship
ended in 2014.
J.S. had residential custody of the child. At first,
defendant and J.S. amicably resolved any issues regarding the child, but over time, the relationship deteriorated. As part of her TRO application, J.S. alleged
that in April, 2010, while the couple lived together, defendant pointed a loaded firearm in her face and said,
“[i]f [her ex-husband] comes to my home, this is the last
thing he’ll see.” Defendant denied this incident occurred. The judge noted that J.S.’s testimony at a public safety hearing, held on December 18, 2018, differed
from her testimony at the FRO hearing, and he therefore “[found] it difficult to credit her version of the incident[.]”

App. 3
J.S. also made harassment allegations, claiming
that defendant was “tracking” her and the child’s
movements and was recording their parenting exchanges without her knowledge. She asserted defendant used offensive language, calling her a “bitch.” J.S.
said defendant threatened not to let her see the child
again, to ruin her current-husband’s career, and to use
his attorneys against her. J.S. also contended that defendant abused animals, had untreated post-traumatic
stress disorder (PTSD), and that he had tried to commit suicide during deployment. Defendant denied all
allegations, except those involving his PTSD.
These events prompted J.S. to file for the TRO. A
Family Part judge in Burlington County first issued
the TRO on May 25, 2018, which the judge amended on
June 1, 2018. Because of the TRO, the Ocean County
Prosecutor’s Office (OCPO) seized twenty-seven weapons and an FPIC from defendant’s home. On June 5,
2018, the judge dismissed the TRO and declined to issue an FRO.
On September 6, 2018, the Burlington County
Prosecutor’s Office (BCPO) served defendant with its
notice of intention to obtain title to weapons and “revoke any and all permits, licenses and other authorizations [he] may have to possess th[o]se weapons.” On
June 3, 2019, the judge granted the State’s petition for
forfeiture and entered the order under review.

App. 4
On appeal, defendant argues:
POINT I
THE ISSUANCE OF A WARRANT FOR THE
SEARCH AND SEIZURE OF DEFENDANT’S
PROPERTY WAS UNCONSTITUTIONAL AND
INVALID.
POINT II
THE [JUDGE] ERRED IN CONSIDERING PTSD
AS AN ISSUE WHEN THE STATE’S FORFEITURE PETITION DID NOT INCLUDE N.J.S.A.
2C:58-3[(c)](3) AS A BASIS FOR FORFEITURE[.]
POINT III
THE [JUDGE] ERRED IN TAKING JUDICIAL
NOTICE OF THE PSYCHIATRIC REFERENCE
TEXT DSM-5 REGARDING PTSD WITHOUT
PROVIDING DEFENDANT WITH A COPY OF
THE TEXT, NOTICE, OR AN OPPORTUNITY TO
RESPOND.
POINT IV
THE [JUDGE] ERRED IN FINDING THAT THE
CENTURY ARMS RIFLE WAS A PROHIBITED
FIREARM[.]
POINT V
THE [JUDGE] ERRED IN CONCLUDING THAT
DEFENDANT ADMITTED THAT HE KNEW HIS
CENTURY ARMS RIFLE WAS PROHIBITED IN
NEW JERSEY[.]

App. 5
POINT VI
THE [JUDGE] ERRED IN DENYING DEFENDANT’S MOTION TO DISMISS FOR THE
STATE’S VIOLATION OF N.J.S.A. 2C:25-21(d)(3).
POINT VII
THE [JUDGE] ERRED IN REQUIRING WRITTEN SUMMATIONS PRIOR TO THE CLOSE OF
TESTIMONY[.]
POINT VIII
THE [JUDGE] ERRED IN EXCLUDING EVIDENCE OF THE CUSTODY AND [DCPP] MATTERS PENDING WHEN [J.S.’S] DOMESTIC
VIOLENCE COMPLAINT WAS FILED[.]
POINT IX
THE [JUDGE] EXHIBITED BIAS IN FAVOR OF
THE STATE[.] (Not Raised Below)[.]
POINT X
IN ARGUENDO TO POINT IV ABOVE, EVEN IF
THE ALLEGED FIREARM AT ISSUE IS FOUND
TO BE AN “ASSAULT FIREARM,” IT IS A VIOLATION OF DEFENDANT’S SECOND AMENDMENT RIGHTS TO BAR HIM FROM FURTHER
FIREARM POSSESSION UNDER THESE CIRCUMSTANCES. (Not Raised Below)[.]
Defendant also submitted a reply brief raising the following arguments, which we have renumbered:
POINT XI
DISPUTED ALLEGATIONS ARE NOT FACTS.

App. 6
POINT XII
THE NEW JERSEY DOMESTIC VIOLENCE
PROCEDURES MANUAL SETS FORTH PROCEDURES THAT INCLUDE NOTICE TO THE
COUNTY THAT ISSUES A TRO AND SEARCH
WARRANT WHEN SERVICE IS MADE IN ANOTHER COUNTY.
I.
We begin our discussion by addressing the search
and seizure of defendant’s weapons. Defendant asserts
that we should vacate the June 3, 2019 order because
there was no probable cause demonstrating that the
search and seizure were necessary to protect the life
and well-being of J.S. We disagree with this assertion.
“Because ‘a judicial declaration that a defendant
poses a threat to the public health, safety or welfare
involves, by necessity, a fact-sensitive analysis,’ ‘an appellate court should accept a trial [ judge’s] findings of
fact that are supported by substantial credible evidence.’ ” In re Forfeiture of Pers. Weapons and Firearms Identification Card belonging to F.M., 225 N.J.
487, 505 (2016) (internal citation omitted) (first quoting State v. Cordoma, 372 N.J. Super. 524, 535 (App.
Div. 2004), then quoting In re Return of Weapons
to J.W.D., 149 N.J. 108, 116-17 (1997)). Family Part
judges’ findings are entitled to deference because “they
are judges who have been specially trained” in family
matters. J.D. v. M.D.F., 207 N.J. 458, 482 (2011).

App. 7
Therefore, we “do not disturb the factual findings
and legal conclusions of the trial judge unless we are
convinced that they are so manifestly unsupported by
or inconsistent with the competent, relevant and reasonably credible evidence as to offend the interests of
justice[.]” Rova Farms Resort, Inc. v. Inv’rs Ins. Co. of
Am., 65 N.J. 474, 484 (1974) (quoting Fagliarone v.
Township of North Bergen, 78 N.J. Super. 154, 155
(App. Div. 1963)). A search executed pursuant to a warrant issued by a judge carries a presumption of validity, State v. Valencia, 93 N.J. 126, 133 (1983), therefore
we must accord substantial deference to a trial judge’s
decision to issue a warrant. State v. Sullivan, 169 N.J.
204, 211 (2001). However, questions of law are reviewed de novo. Gere v. Louis, 209 N.J. 486, 499 (2012).
A Family Part judge’s legal determinations are not entitled to any special deference. Ibid.
When a plaintiff files a domestic violence complaint seeking an ex parte TRO and alleging that the
defendant has committed an act of domestic violence,
and “[i]f it appears that the plaintiff is in danger of domestic violence, the judge shall, upon consideration of
the plaintiff ’s domestic violence complaint, order
emergency ex parte relief, in the nature of a [TRO]. A
decision shall be made by the judge regarding the
emergency relief forthwith.” N.J.S.A. 2C:25-28(g). The
PDVA further provides:
Emergency relief may include forbidding the
defendant from returning to the scene of the
domestic violence, forbidding the defendant
from possessing any firearm or other weapon

App. 8
enumerated in subsection r. of N.J.S.[A.]
2C:39-1, ordering the search for and seizure of
any firearm or other weapon at any location
where the judge has reasonable cause to believe the weapon is located and the seizure of
any [FPIC] or permit to purchase a handgun
issued to the defendant and any other appropriate relief.
[N.J.S.A. 2C:25-28(j).]
The PDVA allows a judge to issue a TRO “to protect a victim of domestic violence and to enter an order
authorizing . . . police to search for and seize from the
defendant’s home, or any other place, weapons that
may pose a threat to the victim.” State v. Hemenway,
239 N.J. 111, 116 (2019). “The purpose of a search warrant issued pursuant to N.J.S.A. 2C:25-28[(j)] is to
protect the victim of domestic violence from further violence, and not to discover evidence of criminality.”
State v. Johnson, 352 N.J. Super. 15, 19 (App. Div.
2002). “[T]here is a strong public policy in this State of
prohibiting access to firearms for those individuals determined to have committed acts of domestic violence,
even on a prima facie basis, where their access to weapons enhances the risk of harm to the victim.” Id. at 33.
Before a judge can issue an order to search for
weapons under the PDVA, the judge must find:
(1) probable cause to believe that an act of domestic violence has been committed by the defendant; (2) probable cause to believe that a
search for and seizure of weapons is “necessary to protect the life, health or well-being of

App. 9
a victim on whose behalf the relief is sought,”
see N.J.S.A. 2C:25-28(f ); and (3) probable
cause to believe that the weapons are located
in the place to be searched.
[Hemenway, 239 N.J. at 117.]
“[P]robable cause requires that the issuing court
only have a well-grounded suspicion.” Ibid.; see State
v. Pinkston, 233 N.J. 495, 509 (2018) (emphasizing that
a showing of probable cause “is not a high bar” (quoting
District of Columbia v. Wesby, 583 U.S. ___, 138 S. Ct.
577, 586 (2018))). “[E]ven if a domestic violence complaint is dismissed and the conditions abate, forfeiture
may be ordered if the . . . defendant’s possession of
weapons ‘would not be in the interests of the public
health[,] safety[,] or welfare.’ ” F.M. 225 N.J. at 510-11
(quoting N.J.S.A. 2C:58-3(c)(5)).
The TRO judge specifically found that there was
probable cause to execute the search. As to the first requirement of Hemenway, the judge must find probable
cause that the harassment occurred. See 239 N.J. at
117. As to N.J.S.A. 2C:33-4(a), under which the hearing
officer and TRO judge found that there was an act of
harassment, “there need only be proof of a single such
communication, as long as defendant’s purpose in
making it . . . was to harass and as long as it was made
in a manner likely to cause annoyance or alarm to the
intended recipient.” J.D., 207 N.J. at 477.
In making this determination, the judge relied on
the findings by the hearing officer, J.S.’s affidavit, and
J.S.’s testimony. Cf. Johnson, 352 N.J. Super. at 34

App. 10
(declining to find probable cause where the judge solely
relied on the content of the recommended TRO and did
not have the benefit of a victim affidavit or testimony).
Although the judge ultimately denied the FRO, probable cause existed. Defendant informed J.S. that he
knew the exact times that the child was dropped off.
The TRO judge found that this was done with the intent to harass and to suggest that he may be following
or tracking J.S.
The second prong of Hemenway was satisfied.
While the alleged act of domestic violence itself did not
involve the use, or threatened use, of a weapon, J.S.
testified that defendant had pointed the weapon at her
in the past. Additionally, she testified that defendant
kept a loaded handgun in his vehicle. In considering
the totality of the circumstances, see Sullivan, 169 N.J.
at 216, J.S. testified that defendant abused animals in
the past, attempted suicide, and has untreated PTSD.
In considering all the allegations, the TRO judge had
probable cause to find that the search and seizure of
the weapons was necessary to protect J.S.’s “life, health
or well-being[.]” Hemenway, 239 N.J. at 117 (internal
citation omitted).
As to the third requirement of Hemenway, J.S. testified to the types, quantities, and locations of weapons
that defendant possessed. She described in detail how
defendant stored a weapon in his car. J.S. knew of the
weapons and their locations from living with him and
from their continuous relationship. Therefore, there
was probable cause that the weapons would be located
in the places to be searched. Ibid.

App. 11
II.
Defendant argues that the judge erred in considering his PTSD as a factor for forfeiture of his weapons
and FPIC. Defendant contends that he was not afforded notice that the State would rely, in part, on his
PTSD—under N.J.S.A. 2C:58-3(c)(3)—and that therefore he was unprepared to respond.
In an action under the PDVA, our review of a forfeiture of firearms and FPIC is deferential. F.M., 225
N.J. at 505-06. “[A] judicial declaration that a defendant poses a threat to the public health, safety or welfare involves, by necessity, a fact-sensitive analysis[.]”
Id. at 505 (quoting Cordoma, 372 N.J. Super. at 535).
Therefore, we “should accept a trial [judge’s] findings
of fact that are supported by substantial credible evidence.” Ibid. (quoting J.W.D., 149 N.J. at 116-17).
“The State retains the statutory right to seek the
forfeiture of any seized firearms provided it can show
that defendant is afflicted with one of the legal ‘disabilities’ enumerated in N.J.S.A. 2C:58-3[(c)].” Cordoma,
372 N.J. Super. at 533. N.J.S.A. 2C:58-3(c)(3) provides:
No person of good character and good repute
in the community in which he lives, and who
is not subject to any of the disabilities set
forth in this section or other sections of this
chapter, shall be denied a permit to purchase
a handgun or a [FPIC], except as hereinafter
set forth. No handgun purchase permit or
[FPIC] shall be issued:
....

App. 12
To any person who suffers from a physical defect or disease which would make it unsafe
for him to handle firearms . . . unless [he] produces a certificate of a medical doctor or psychiatrist licensed in New Jersey, or other
satisfactory proof, that he is no longer suffering from that particular disability in a manner that would interfere with or handicap him
in the handling of firearms[.]
N.J.S.A. 2C:58-3(c)(5) specifies that a handgun purchase permit or FPIC shall not be issued “[t]o any person where the issuance would not be in the interest of
the public health, safety or welfare[.]”
Although the notice and petition for the forfeiture
of defendant’s firearms did not explicitly state that defendant’s PTSD would be used as a basis to support the
State’s forfeiture petition, defendant had notice that
it could be used. The State asserted multiple reasons
for its petition for forfeiture, particularly including
N.J.S.A. 2C:58-3(c)(5), which states that it “would not
be in the interest of public health, safety or welfare” for
defendant to possess weapons and/or an FPIC.
J.S., in her complaint against defendant, explicitly
cited PTSD as one of her reasons for filing for a TRO.
She raised defendant’s untreated PTSD in a hearing
with the hearing officer. J.S. also mentioned it to the
TRO judge during the hearing. During the FRO hearing, she testified again regarding defendant’s PTSD,
including on cross-examination by defendant’s counsel.
Defendant conceded that he was diagnosed with
PTSD.

App. 13
N.J.S.A. 2C:58-3(c)(5) calls for forfeiture “in the
interest of the public health,” whereas N.J.S.A. 2C:583(c)(3) notes that “any person who suffers from a physical defect or disease which would make it unsafe for
him to handle firearms” may produce a doctor’s certification stating that “he is no longer suffering from that
particular disability in a manner that would interfere
with or handicap him in the handling of firearms[.]”
Seeing as defendant conceded that he suffered from
PTSD, it is unbelievable to think that he was unaware
this could be raised against him, especially because the
State cited public health and safety as a reason for the
petition for forfeiture.
We therefore conclude that defendant had adequate notice that his PTSD could be raised as a basis
for the forfeiture of his weapons and FPIC.
III.
Defendant argues that the judge erred in taking
judicial notice sua sponte of the definition of PTSD, as
defined by the Diagnostic and Statistical Manual of
Mental Disorders, Fifth Edition (DSM-5). He alleges
that the judge “picked and chose those portions of . . .
the DSM-5 on PTSD . . . that confirmed [his] beliefs[ ]
and used them as a basis for forfeiture.”
N.J.R.E. 201 provides that:
(b) Notice of Facts. The court may judicially
notice a fact, including: (1) such specific facts
and propositions of generalized knowledge as
are so universally known that they cannot

App. 14
reasonably be the subject of dispute; (2) such
facts as are so generally known or are of such
common notoriety within the area pertinent
to the event that they cannot reasonably be
the subject of dispute; (3) specific facts and
propositions of generalized knowledge which
are capable of immediate determination by resort to sources whose accuracy cannot reasonably be questioned; and (4) records of the
court in which the action is pending and of
any other court of this state or federal court
sitting for this state.
(c) When Discretionary. The court may take
judicial notice on its own.
(d) When Mandatory. The court shall take
judicial notice if a party requests it on notice
to all other parties and the court is supplied
with the necessary information.
(e) Opportunity to Be Heard. On timely request, a party is entitled to be heard on the
propriety of taking judicial notice and the nature of the matter noticed. If the court takes
judicial notice before notifying a party, the
party, on request, is still entitled to be heard.
(f ) How Taken. In determining the propriety
of taking judicial notice and the nature of
the matter to be noticed, any source of relevant information may be consulted or used,
whether or not furnished by a party[.]
“The purpose of judicial notice is to save time and promote judicial economy by precluding the necessity of
proving facts that cannot seriously be disputed and are

App. 15
either generally or universally known.” State v. Silva,
394 N.J. Super. 270, 275 (App. Div. 2007). It may not be
used to take notice of a contested fact or ultimate legal
issue in dispute. Ibid.
“[A] text will qualify as a ‘reliable authority’ if it
represents the type of material reasonably relied on by
experts in the field.” Jacober v. St. Peter’s Med. Ctr., 128
N.J. 475, 495 (1992). “General acceptance of the DSM
in the psychiatric community is beyond dispute.” State
v. King, 387 N.J. Super. 522, 544 (App. Div. 2006); see
State v. Rosales, 202 N.J. 549, 559 (2010) (deeming
DSM-5 an “authoritative treatise”).
Defendant’s PTSD was undisputed—indeed, he
admitted his diagnosis. The issue on the State’s petition was how severe defendant’s case of PTSD was, and
whether it posed a risk to the public health, safety, or
welfare. See N.J.S.A 2C:58-3(c)(5). The judge took judicial notice of the general definition of PTSD. The definition provided the judge with some insight as to the
condition defendant conceded he had. Defendant did
not argue that the DSM-5’s definition was incorrect
or in dispute, presumably because the definition came
from a widely used and relied upon source. King, 387
N.J. Super. at 544. Therefore, the judicial notice of the
DSM-5’s definition of PTSD was proper.
IV.
Defendant argues that one of the firearms seized,
the Century Arms rifle, does not meet the definition of

App. 16
“assault firearm” and therefore is not a banned firearm.
N.J.S.A. 2C:39-1(w) defines “[a]ssault firearm,”
and contains a lengthy enumerated list of firearms
that meet this definition. Under N.J.S.A. 2C:39-1(w)(2),
any firearm that is “substantially identical” to any of
these listed firearms also constitutes an assault firearm. We have found that “the definition of ‘substantially identical’ is sufficiently clear” when read in
conjunction with the Attorney General’s guidelines.
State v. Petrucci, 343 N.J. Super. 536, 547 (App. Div.
2001).
According to these guidelines:
[A] semi-automatic rifle that has the ability to
accept a detachable magazine and has at least
[two] of the following:
1.

a folding or telescoping stock;

2. a pistol grip that protrudes conspicuously beneath the action of the weapon;
3.

a bayonet mount;

4. a flash suppressor or threaded barrel
designed to accommodate a flash suppressor; and
5.

a grenade launcher[.]

[Guidelines Regarding the “Substantially Identical” Provision in the State’s Assault Firearms Laws issued by Attorney General Peter
Verniero to the Director of the Division of
Criminal Justice, All County Prosecutors, and

App. 17
All Law Enforcement Chief Executives on
Aug. 19, 1996 (hereinafter AG’s guidelines)
(emphasis added).]
We have held that the AG’s guidelines are to be read in
conjunction with N.J.S.A. 2C:39-1(w)(1) to make clear
the definition of “assault firearm.” See Petrucci, 343
N.J. Super. at 547 (affirming that “the definition of ‘assault firearm’ is sufficiently clear, especially in light of
the [AG’s] guidelines”).
Mr. James Ryan, the State’s firearms expert, testified, and the judge acknowledged, that the weapon
was able to accept a detachable magazine. Defendant
acknowledged that his weapon had a pistol grip. He
further recognized that it had a threaded barrel. Defendant stated that the threaded barrel allows for
attachment of additional items, such as a flash suppressor, onto the rifle. These admissions alone would
meet the AG’s definition of semiautomatic rifle.
Defendant argues that the weapon cannot be
considered a firearm because there was no proof
that it was presently operable. Mr. Ryan examined the
weapon and concluded it was operable, however he did
not test fire it. In State v. Elrose, 277 N.J. Super. 548,
559 (App. Div. 1994), we concluded that test-firing a
weapon was not a prerequisite to finding a weapon operable. In that case, “[t]he trial judge . . . concluded
that, even though the State’s expert did not test-fire
the magazines, there were sufficient inferences based
on his testimony that they were operable, assuming
that proof of operability was required.” Ibid.

App. 18
Although it is true that Mr. Ryan did not fire the
weapon, defendant himself testified that he had previously fired the weapon.
[Defense counsel:] Did you ever fire that
weapon?
[Defendant:] I believe once. One session of
firing. I don’t know how many rounds I put
through it. It wasn’t a lot, I know that.
[Defense counsel:] The expert testified there
was a muzzle break on that rifle. Were you
aware of that?
[Defendant:] There’s I believe it’s a compensator but that would be splitting hairs but,
yes, there is a muzzle attachment that he described as a muzzle break on the end of it.
[Defense counsel:] Okay. Were you aware of
that when you bought it?
[Defendant:] I knew there was a barrel attachment on the end. I could see it.
Defendant also testified he fired the gun within
the last six months. Based on defendant’s testimony
and that of the State’s expert, the judge found by a preponderance of the evidence that the weapon was an
assault rifle. The record supports this finding.
V.
We reject defendant’s argument that the judge unfairly concluded that the rifle was “substantially identical” to a specific firearm listed on the banned list.

App. 19
Defendant asserts the conclusion was unfair because
he did not knowingly possess an assault firearm.
“The knowing violation of the gun laws in and of
itself is a sufficient statutory basis for the [judge] to
order a forfeiture of seized weapons, without the necessity of the [ judge] also finding that the defendant is
unfit or a danger to the public in general[.]” State v. 6
Shot Colt .357, 365 N.J. Super. 411, 417 (Ch. Div. 2003);
see State ex rel. C.L.H.’s Weapons, 443 N.J. Super. 48,
60 (App. Div. 2015) (affirming that the “knowing possession of an assault firearm contrary to this State’s
gun control laws is sufficient basis for forfeiture”); accord In re Osworth, 365 N.J. Super. 72, 81 (App. Div.
2003) (noting that “it does not serve public safety to
issue a handgun purchase permit to someone who has
demonstrated his willingness to disregard the gun
laws of this State”).
There was sufficient evidence that defendant
knew the weapon was illegal in New Jersey. The judge
noted that defendant was familiar with New Jersey
firearms laws based on the fact that defendant was
charged with possessing illegal assault weapons in
1999. In fact, defendant stipulated to the police report
from the incident. The judge pointed out that defendant continued to possess this weapon, even though he
testified that he thought it was a prohibited weapon.
When asked whether the rifle is prohibited in New Jersey, defendant responded “[i]n its current . . . configuration, yes.” Moreover, defendant testified that he was
aware of and “generally” familiar with the AG’s guidelines.

App. 20
The record establishes that defendant knowingly
possessed an illegal firearm. However, even if the judge
did err in holding that defendant knowingly possessed
an illegal rifle—which is not the case—the error would
be harmless, as it has been established that the
weapon was an illegal assault rifle, and therefore it
was not necessary for the State to prove that defendant
knowingly possessed the firearm. See C.L.H., 443 N.J.
Super. at 60; see also R. 2:10-2.
VI.
Defendant contends that the judge erred by dismissing his motion to dismiss because the forfeiture
was not filed within forty-five days of the seizure of his
weapons.
According to N.J.S.A. 2C25-21(d)(3):
Weapons seized in accordance with the
[PDVA] shall be returned to the owner except
upon order of the Superior Court. The prosecutor who has possession of the seized weapons may, upon notice to the owner, petition a
judge of the Family Part of the Superior
Court, Chancery Division, within [forty-five]
days of seizure, to obtain title to the seized
weapons, or to revoke any and all permits, licenses and other authorizations for the use,
possession, or ownership of such weapons pursuant to the law governing such use, possession, or ownership, or may object to the return of the weapons on such grounds as
are provided for the initial rejection or later

App. 21
revocation of the authorizations, or on the
grounds that the owner is unfit or that the
owner poses a threat to the public in general
or a person or persons in particular.
A hearing shall be held and a record made
therefore within [forty-five] days of the notice
provided above. No formal pleading and no filing fee shall be required as a preliminary to
such hearing. The hearing shall be summary
in nature. Appeals from the results of the
hearing shall be to [this court], in accordance
with the law.
Time does not begin to run until the prosecutor either
comes into possession of the weapons or learns of the
seizure. State v. McGovern, 385 N.J. Super. 428, 431
(App. Div. 2006); see also State v. Saavedra, 276 N.J.
Super. 289, 294 (App. Div. 1994) (presuming that the
prosecutor could not take the required evaluation to
make an informed decision whether to seek forfeiture
until the prosecutor actually received the weapon or
notice of the seizure). “If the statute [was] applied literally, and if the clock began to run on the date of the
seizure, . . . the statutory scheme [may] be frustrated.”
McGovern, 385 N.J. Super. at 431.
On July 24, 2018, the OCPO notified the BCPO
that it was in possession of a number of weapons that
it had seized from defendant in connection with the
domestic violence action. Prior to this date, the BCPO
had no knowledge of the seizure and thus could not file
a petition for forfeiture. The BCPO filed its petition for

App. 22
forfeiture on September 6, 2018—forty-four days after
July 24.
In his reply brief, defendant argues, for the first
time, that the State failed to follow the procedures laid
out in New Jersey’s Domestic Violence Procedures Manual. Defendant failed to raise this below, and therefore
we decline to address this argument. Nieder v. Royal
Indem. Ins. Co., 62 N.J. 229, 234 (1973). We briefly add
that the manual provides that:
[The] designated law enforcement agency in
the issuing county must bring or fax the order
and related documents to the sheriff ’s department or other designated law enforcement
agency in the county of the defendant’s residence or business.
....
The return of service should then be faxed
back to the sheriff ’s department or other designated law enforcement agency in the issuing county, which in turn must immediately
deliver or fax the return of service to the Family Division in the issuing county.
[Domestic Violence Procedures Manual § 4.7
(2008).]
The manual further provides that the weapons “shall
be secured by the prosecutor in the seizing county for
storage. At such time that the seized property is
needed by the prosecutor or Family Division in the
issuing county, the prosecutor in the seizing county
shall forward same.” Id. at § 3.14.3(B)(2).

App. 23
The manual “is intended to provide procedural
and operational guidance for two groups with responsibility for handling domestic violence complaints in
the state of New Jersey—judges and Judiciary staff
and law enforcement personnel.” Domestic Violence
Procedures Manual, Notice at I (2008); see T.M.S. v.
W.C.P., 450 N.J. Super. 499, 504-05 (App. Div. 2017).
“Th[e] [m]anual is not intended to change any statute
or court rule, and in the event a statute or court rule
differs from th[e] manual, the statute or rule will control.” Domestic Violence Procedures Manual, Notice at
I (2008).
As it has been established, N.J.S.A. 2C:25-21(d)(3)
requires that the petition for forfeiture be filed within
forty-five days of the prosecutor either coming into possession of the weapons or learning of the seizure. See
McGovern, 385 N.J. Super. at 431; see also Saavedra,
276 N.J. Super. at 294. Because the manual is not intended to change any statute or court rule, we find that
the BCPO promptly filed for forfeiture, and thus the
judge did not err by denying defendant’s motion to dismiss.
VII.
Defendant argues that the judge erred by excluding evidence of an ongoing custody matter and the
DCPP investigation into J.S.’s husband. Defendant
claims that he sought to introduce this evidence not for
the truth of the matter asserted, but rather for his

App. 24
state of mind, for J.S.’s credibility, and for her motivation for filing for a TRO.
“Appellate review of a trial [judge’s] discovery order is governed by the abuse of discretion standard.”
State ex rel. A.B., 219 N.J. 542, 554 (2014). “Thus,
an appellate court should generally defer to a trial
[judge’s] resolution of a discovery matter, provided its
determination is not so wide of the mark or is not
‘based on a mistaken understanding of the applicable
law.” Ibid. (quoting Pomerantz Paper Corp. v. New
Cmty. Corp., 207 N.J. 344, 371 (2011)). However, “[i]n
construing the meaning of a statute, court rule, or case
law, ‘our review is de novo,’ ” and we owe no deference
to the trial judge’s legal conclusions. Id. at 554-55
(quoting Farmers Mut. Fire Ins. Co. v. N.J. Prop.-Liab.
Ins. Guar. Ass’n, 215 N.J. 522, 535 (2013)).
Reports and information of child abuse reports are
confidential and may only be disclosed to a court “upon
its finding that access to such records may be necessary for determination of an issue before it[.]” N.J.S.A.
9:6-8.10a(b)(6); see also N.J. Div. of Youth and Family
Servs. v. N.S., 412 N.J. Super. 593, 637 (App. Div. 2010)
(holding that release of DCPP records may only be
made upon demonstration that disclosure is necessary for determination of an issue before the court).
“[A]llowing a defendant to forage for evidence without
a reasonable basis is not an ingredient of either due
process or fundamental fairness in the administration
of the criminal laws.” State v. R.W., 104 N.J. 14, 28
(1986). The party seeking the review “should at least
advance ‘some factual predicate which would make it

App. 25
reasonably likely that the file will bear such fruit and
that the quest for its contents is not merely a desperate
grasping at a straw.’ ” State v. Kaszubinski, 177 N.J.
Super. 136, 141 (Law Div. 1980) (citation omitted).
The judge addressed defendant’s proffer of the
DCPP investigation records and ultimately denied it,
stating that admitting evidence of litigation that was
not between J.S. and defendant “runs the . . . severe
risk of undue consumption of time, and merely cumulative of other evidence which is clear to [the judge].”
The judge explained that he did not wish to “throw a
net . . . so wide that it encompasses the possibility that
any possible interactions between . . . defendant and
[J.S.] may have had over the many years of their relationship.”
J.S. was neither the subject nor the filer of the inquiry. The allegations surrounding the investigation
do not involve the child. Defendant failed to reasonably demonstrate why this confidentiality should be
breached, especially considering that it involved the
protected matter of another child. Further, the judge
noted that he found the introduction of this evidence
would be repetitive of what defendant already demonstrated. Therefore, there has been no abuse of discretion, and the judge did not err by excluding evidence of
the DCPP investigation.
VIII.
Defendant argues that it is a violation of his Second Amendment rights to bar him from further firearm

App. 26
possession. He argues that the statute’s use of “public
safety” is not narrowly tailored, nor limited in time,
and therefore is unconstitutionally broad and vague.
Defendant failed to raise this argument below, and
therefore we decline to address it. See Nieder, 62 N.J.
at 234. However, we add the following brief comments.
The Supreme Court recently addressed this argument and summarily rejected it. F.M., 225 N.J. at 50708 (noting that N.J.S.A. 2C:58-3(c)(5) and (c)(8) have
been upheld against Second Amendment challenges);
see In re Dubov, 410 N.J. Super. 190, 197 (App. Div.
2009) (expressly finding that N.J.S.A. 2C:58-3(c)(5) is
not unconstitutionally vague); see also Crespo v. Crespo,
201 N.J. 207, 210 (2010) (holding PDVA constitutional
because “the right to possess firearms clearly may be
subject to reasonable limitations”); In re Winston, 438
N.J. Super. 1, 10 (2014) (holding that District of Columbia v. Heller, 554 U.S. 570 (2008), and McDonald v. City
of Chicago, 561 U.S. 742 (2010), do not render N.J.S.A.
2C:58-3(c)(5) unconstitutional).
To the extent we have not specifically addressed
any of defendant’s remaining arguments, we conclude
that they are without sufficient merit to warrant discussion in a written opinion. R. 2:11-3(e)(1)(E).
Affirmed.

App. 27
SCOTT A. COFFINA
BURLINGTON COUNTY PROSECUTOR
NEW COURTS FACILITY
P.O. BOX 6000
49 RANCOCAS ROAD
MOUNT HOLLY, NJ 08060
(609) 265-5035
STATE OF
NEW JERSEY
Plaintiff,
v.
[P.Z.]
Defendant.

:
:
:
:
:
:
:
:
:
:
:
:

SUPERIOR COURT
OF NEW JERSEY
COUNTY OF BURLINGTON
CHANCERY DIVISION
FAMILY PART
DOCKET NO. FO-03-90-19
WEAPONS NO. W18-00106
EMU NO. 18-2578
AMENDED FINAL
DISPOSITION ORDER
(Filed Aug. 7, 2019)

This matter having been opened by the Court by
Petition of the State through Scott A. Coffina, Esq.,
Burlington County Prosecutor, and presented to the
Court by Assistant Prosecutor Jensen E. Vizzard, Esq.,
and Jay Sendzik, Esq. and Evan Nappen, Esq., appearing on behalf of Defendant [P.Z.]; and the Court having
considered the written submissions and arguments of
the parties; and the Court having considered the testimony of Jennifer Smith, Ret. Trooper James Ryan and
the Defendant; and for good cause having been shown:

App. 28
IT is on this 7th day of August 2019, nunc pro tune
June 12, 2019, ORDERED that the State’s petition
to forfeit Defendant [P.Z.]’s weapons, pursuant to the
New Jersey Prevention of Domestic Violence Act,
N.J.S.A. 2C:25-17, and to revoke any and all permits,
licenses or authorizations for the use, possession or
ownership of these weapons, pursuant to N.J.S.A.
2C:25-21d is GRANTED for the reasons set forth below and on the record on June 3, 2019:
(1) Pursuant to N.J.S.A. 2C:58-3c(5), it would be
contrary to the interest of the public health,
safety or welfare for Defendant to possess
firearms as one of the weapons seized in this
matter, specifically the Century Arms semiautomatic firearm (s/n 29NC12685), is a prohibited assault firearm, pursuant to N.J.S.A.
2C:39-1w(2), and defendant knowingly possessed same.
(2) Pursuant to N.J.S.A. 2C:58-3c(3), Defendant
is disqualified from possessing a Firearm’s
Purchaser Identification Card as he admittedly has post-traumatic stress disorder
(“PTSD”). The Court finds that PTSD would
make it unsafe for Defendant to handle firearms and Defendant has failed to produce a
certificate of a medical doctor or psychiatrist
licensed in New Jersey, or other satisfactory
proof, that he is no longer suffering from that
particular disability in a manner that would
interfere with or handicap him in the handling of firearms.

App. 29
(3) The following items are addressed by this order, under EMU #: 18-2190:
EMU
Item #

Item Description

1.

Barrent Firearms Mfg Co. 50 caliber
w/ mounted scope in hard case (s/n
AD001754)

2.

Magqul Industries .223 caliber with
mounted scope in hard case (s/n
FMK29528)

3.

Romarm/Cugir 7.62 caliber with
mounted scope (s/n H-7666-79)

4.

Beretta 9mm in hard case (s/n
CX35069)

5.

Beretta 9mm (s/n UNKNOWN)

6.

Remington Arms Co. 870 12 gauge
shotgun in soft case (s/n D761226M)

7.

Century Mfg. Inc. Semi-automatic
rifle 7.62 caliber (s/n 39NC12685)

8.

Savage .308 caliber with mount
scope in soft case (s/n G28840)

9.

Sturm-Ruger .223 caliber (s/n 58119135)

10.

Mossberg 12 gauge shotgun (s/n
U483592)

11.

Saiga 7.62 caliber in soft case (s/n
T11101878)

12.

Ruger .22 caliber (s/n 352-65006)

App. 30
13.

Springfield Arms Co. .30 caliber in
soft case (s/n 837141)

14.

Bushmaster Firearms 5.56 caliber
with mounted scope in hard case
(s/n E05034)

15.

Bushmaster Firearms 5.56 caliber
with mounted scope in hard case
(s/n L453577)

16.

Keltek 12 gauge (s/n X7M62)

17.

Benelli S.PA (s/n BC001048)

18.

Unknown make – made in Bulgaria
545 x 395 caliber (s/n AB541635)

19.

Beretta 9mm-in hard case (s/n
BER044165Z)

20.

Unknown make
(s/Nab38356)

21.

Beretta (s/n PX2137V)

22.

Glock 9mm (s/n GMZ414)

23.

Glock 9mm (s/n RZZ179)

24.

Smith & Wesson 9min in hard case
(s/n SAA9887)

25.

Protector Arms Co 6-35 caliber (s/n
37025)

26.

Barnett Crossbow with mounted
scope and (2) arrows (s/n 453813)

27.

NJ Firearm Identification Card issued to [P.Z.] (#869488B)

-

.45

caliber

App. 31
28.

91 assorted magazines in 5 plastic
bags

AND THE TWO WEAPONS SEIZED FROM
DEFENDANT IN NORTH HANOVER
(4) All gun cases (after being emptied) shall be returned to Defendant. Defendant must pick up
these cases within 60 days of the date of this
Order or the cases are forfeited to the State
of New Jersey and will be Destroyed. Owner
must make arrangements with the Evidence
Management Unit (609) 265-3148 of the
Burlington County Prosecutor’s Office to claim
the cases.
(5) Defendant may arrange, through the Evidence Management Unit (609) 265-3148 of
the Burlington County Prosecutor’s Office, for
the sale of the firearms, magazines and/or
ammunition or transfer to a licensed firearm
dealer within the State of New Jersey. These
firearms may be sold to a licensed firearm
dealer within the State of New Jersey. Sale of
these firearms must be made within 60 days
of the date of this Order. If these firearms,
magazines and/or ammunition are not sold or
transferred within 60 days of the date of this
Order, all right, title and interest in the firearms shall transfer to the State of New Jersey,
County of Burlington for destruction.
(6) [S.S.] shall provide the Burlington County
Prosecutor’s Office with proof of ownership of
the following weapons:

App. 32
EMU
Item #

Item Description

24.

Smith & Wesson 9min in hard case
(s/n SAA9887)

25.

Protector Arms Co 6-35 caliber (s/n
37025)

26.

Barnett Crossbow with mounted
scope and (2) arrows (s/n 453813)

This proof shall include copies of the permits to
purchase for the firearms and a receipt for the
crossbow or other satisfactory proof of ownership.
Upon receipt of satisfactory proof of ownership,
the Barnett Crossbow shall be returned to Ms. [S.].
Ms. [S.] shall also provide the Burlington County
Prosecutor’s Office with an affidavit stating where
she intends to store and secure the firearms, if
they were to be returned to her, since no firearms
may be stored in the Defendant’s household as he
is disqualified. from possessing firearms. Failure
to provide this proof within 60 days of the date of
this Order shall result in the weapons being forfeited as such were seized from the Defendant.
/s/ James J. Morley
The Honorable
James J. Morley, J.S.C.
(Ret./Recall)

App. 33
SUPREME COURT
OF NEW JERSEY
C-466 September Term 2020
085143
State of New Jersey,
Plaintiff-Respondent,
v.

ORDER

P.Z.,

(Filed Mar. 12, 2021)
Defendant-Petitioner.

A petition for certification of the judgment in A005083-18 having been submitted to this Court, and
the Court having considered the same;
It is ORDERED that the petition for certification
is denied.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 9th day of March, 2021.
/s/ Heather J. Baker
CLERK OF THE
SUPREME COURT

